WAIVER

Supreme Court of the United States

No. 19-684

Darrell Saunders, et ux. v. Deutsche Bank National Trust Company
(Petitioners) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
@® Please enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

@ Tama member of the Bar of the Supreme Court of the United States.
O Iam not presently a mem
the response will bi Cope
Signature

Date: 2\a\z0 \4
(Type or print) Name Andecw 6 Pittman

O Ms, OMrs. Miss
Firm Routan Sanders UP
Adaress_222 Contril fowk Ayenwe Suite 2000
City & State Vicqinia Beach Vb Zip 24402
Phone meatal: 1h}
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Darrel K Saunders
aoe a
24\0 wood AW.
Cheaapea ee VA 23424

fis) Bar of this Court. Should a response be requested,
ember.

   
  

 

 

 

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 
